<html>
<title> - UNITED STATES-MEXICO COUNTERNARCOTICS EFFORTS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





             UNITED STATES-MEXICO COUNTERNARCOTICS EFFORTS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 29, 2000

                               __________

                           Serial No. 106-155

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-877                     WASHINGTON : 2000


                                 ______

                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
             Gilbert A. Macklin, Professional Staff Member
          Carson A. Nightwine, Jr., Professional Staff Member
                          Lisa Wandler, Clerk
                    Cherri Branson, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 29, 2000................................     1
Statement of:
    Jordan, Phillip, DEA (Retired), former Director of EPIC......    69
    Ledwith, William, Director of International Operations, Drug 
      Enforcement Administration; Mary Lee Warren, Deputy 
      Assistant Attorney General, Criminal Division, Department 
      of Justice; and John Montoya, U.S. Border Patrol Sector 
      Chief, Laredo..............................................    18
Letters, statements, et cetera, submitted for the record by:
    Ledwith, William, Director of International Operations, Drug 
      Enforcement Administration, prepared statement of..........    22
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida:
        Articler dated February 29, 2000.........................     5
        Prepared statement of....................................     8
    Mink, Hon. Patsy T., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................    14
    Montoya, John, U.S. Border Patrol Sector Chief, Laredo, 
      prepared statement of......................................    47
    Warren, Mary Lee, Deputy Assistant Attorney General, Criminal 
      Division, Department of Justice, prepared statement of.....    37

 
             UNITED STATES-MEXICO COUNTERNARCOTICS EFFORTS

                              ----------                              


                       TUESDAY, FEBRUARY 29, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Hutchinson, Mink, Cummings, 
Kucinich, and Tierney.
    Also present: Representatives Gilman and Towns.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Lisa Wandler, clerk; Gilbert A. Macklin and Carson A. 
Nightwine, Jr., professional staff members; Charley Diaz, 
congressional fellow; Cherri Branson, minority counsel; Jean 
Gosa, minority assistant clerk; and Chris Traci, minority staff 
assistant.
    Mr. Mica. Good morning. I would like to call this hearing 
of the Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources to order.
    This morning's hearing will focus on the oversight of the 
United States and Mexico's counternarcotics efforts. We will be 
joined by our ranking member in just a few minutes and we do 
have Mr. Gilman here. I will proceed first with an opening 
statement and then yield to Members, and then we will hear from 
two panels today.
    International drug trafficking continues to be a growing 
threat to security in the United States. According to the 
Substance Abuse and Mental Health Services Administration, 
almost 16,000 Americans lose their lives each year as a direct 
result of illegal narcotics. At a recent hearing we conducted, 
the drug czar, General Barry McCaffrey, estimated that the 
number of deaths could be as high as 52,000 each year. The 
social, economic and criminal justice costs associated with 
drugs is a staggering $110 billion a year and climbing; and if 
we take everything into consideration, there have been 
estimates that it could be as much as a quarter of a trillion 
dollars a year in costs to our society.
    Today, our subcommittee will again examine the United 
States and Mexican counternarcotics efforts. It is important 
that we do so for several reasons: first, because we have such 
an incredible supply of hard narcotics flooding across our 
borders; second, under the drug certification law that Congress 
must annually review, the decision of the administration and 
the certification process which is just around the corner here.
    Our concern is the increasing role that Mexico plays in 
drug trafficking activities. Our relationship with our 
neighborhood to the south is critical, and it is hard to 
imagine an issue which impacts both countries more deeply than 
illegal drugs. In fact, at a hearing on Mexico last year, our 
former DEA Administrator, Tom Constantine, stated, ``In my 
lifetime, I have never witnessed any group of criminals that 
has had such a terrible impact on so many individuals and 
communities in our nation.'' That was his quote a year ago. 
This statement is from a man who spent 40 years in law 
enforcement.
    He went on to say in a November 26, 1999, New York Times 
article, ``We were not adequately protecting the citizens of 
the United States from these organized crime figures.'' The 
``we'' he refers to is the Clinton administration, and I guess 
it would also have to refer to Congress as the guilty parties.
    Every year the President decides which of the major drug-
producing or transiting countries he will certify, and the law 
has a phrase which says ``fully cooperating''--that is the 
terminology; so the law determines and evaluates full 
cooperation with the United States to end the scourge of 
illegal drugs. And that is part of the criteria by which we 
judge these nations.
    Last year, and probably this year, the President will 
certify that Mexico is fully cooperating. This decision made, 
despite what I believe, is very disturbing evidence that our 
neighbors to the south have not made sufficient efforts to stop 
the flow of drugs into our country. Every year the subcommittee 
asks what progress is being made to combat the flow of illegal 
drugs into the United States from Mexico.
    Specifically, we will ask the following questions today: 
Why hasn't the U.S. Government been able to reach an agreement 
with Mexico on adequate safety measures for United States 
agents assigned to the Border Task Forces?
    Why hasn't Mexico extradited a single major Mexican drug 
trafficker to the United States?
    Why has Mexico refused to allow forward basing of United 
States ships or planes in Mexican territory in accordance with 
domestic legislation?
    And why does Mexico refuse to allow United States law 
enforcement agents to carry firearms for self-defense?
    In light of the answers to these questions, on what basis 
would this administration certify Mexico again under the law as 
fully cooperating?
    While there has been a long and productive relationship 
between our two countries, the growing amount of illegal drugs 
that are ending up on America's streets and coming across the 
border should make us pause. Not only is Mexico the leading 
transit country for cocaine entering the United States, the 
DEA's heroin signature program indicates that in 1 year Mexico 
jumped from being the source of 14 percent of heroin in this 
country to its current status of providing 17 percent of all 
the heroin seized in the United States. That is just in a 1-
year period, and is probably a 20 percent increase in 
production, which should be startling to everyone.
    Today, approximately 60 percent of the cocaine on America's 
streets comes from across our Southwest border. A recent 
article from the Washington Post indicates that the heavier 
flow of drugs has exacerbated ongoing problems of trust and 
cooperation between the United States and Mexican authorities, 
and is particularly troubling to law enforcement in light of 
new statistics showing rising marijuana use among American 
teenagers. Additionally, Mexico serves as the major source of 
foreign methamphetamine that is ravaging our communities across 
the Midwest and our Western States.
    We have had previous testimony relating to the meth 
epidemic across our country in places like Iowa and Minnesota; 
other Western and Midwestern States are ravaged by 
methamphetamines coming from Mexico. Methamphetamine has 
supplanted cocaine as the primary drug threat in most Western 
States and many Midwestern States, and has emerged as a major 
concern in the Southeast. The report goes on to say, ``The 
threat posed by methamphetamine is due to its increasing 
popularity and rapidly addictive properties, and the violent 
behavior sometimes associated with its use.''
    In previous years, this administration has testified that 
Mexico deserved to be certified because Mexico is taking 
``significant actions'' and making ``substantial commitments'' 
to address the drug trade. A year later, these commitments 
appear to be only words and misplaced hope by the Clinton 
administration.
    The GAO's July 1999 report entitled ``Update on U.S.-
Mexican Counternarcotics Activities'' served as an important 
midpoint check on progress being made. The report paints a 
bleak picture of cooperation by the Government of Mexico and 
states that Mexico continues to be the primary haven for money 
laundering in Latin America. And furthermore, the report 
states, ``There remains no single binational plan to address 
border problems.''
    The United States and Mexico share a common 2,000-mile 
border. Sadly, the border has become the stage for violence and 
drug trafficking. Consider the discovery of mass graves along 
the border with Texas. This tells a clear and convincing story 
of the brutality of the Mexican drug cartels and their 
complicity with government officials.
    It is interesting to note, too, that they did find bodies. 
We did give notice, and suddenly initial cooperation evaporated 
and Mexican officials, I am told, tried to get us off the scene 
as soon as possible; and we may never know what bodies or 
evidence was removed or what the situation was, but we do know 
that there have been in fact hundreds and in fact dozens of 
Americans and Mexicans who have been slaughtered and buried or 
missing.
    Again, on our border with Mexico, yesterday it was reported 
in the New York Times that the police chief of Tijuana was 
assassinated by four gunmen who put at least 100 shots into his 
vehicle as he drove home from mass. I read this morning's 
article in the Washington Post--maybe some of you read it--and 
it appears that he is not the only recent Mexican law 
enforcement official to have died in this manner.
    This article, which I ask unanimous consent to be made part 
of the record, without objection, details that brutal killing 
and the history of killings in Tijuana and the Baja Peninsula, 
which has become a center of violence, not to mention the 
Yucatan Peninsula and Quintana Roo, which was run by 
narcotraffickers and other states within Mexico which have now 
been taken over by drug traffickers.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T6877.001
    
    Mr. Mica. Today, the challenges faced by United States law 
enforcement officials along the Southwest border with Mexico 
are multiplying every day. The GAO report indicates that 
between September 1996 and February 1999, DEA recorded 141 
threats or violent incidents against United States law 
enforcement personnel, their Mexican counterparts and public 
officials. Additionally, in Mexico, drug enforcement agents are 
not allowed to adequately protect or defend themselves.
    It is also interesting to note that we have a cap on DEA 
agents, that has been placed by Mexico. It is not a public 
number, but it is a very limited number of agents that are even 
allowed to operate in that country; and despite a resolution 
passed several years ago by Congress both to allow our 
enforcement agents to protect themselves and to work in that 
setting, we still have not had a response on this issue from 
Mexico.
    Now we hear that $200,000 bounties have been placed on the 
heads of United States law enforcement officers by Mexican drug 
traffickers. These brazen and arrogant criminal organizations 
have amassed tremendous power and influence in the day-to-day 
lives of not only the Mexican people, but in the lives of 
American citizens and law enforcement representatives.
    In reality, our law enforcement officers are indeed 
involved in a war. An example of this was the cold-blooded 
murder of U.S. Border Patrol Agent Alexander Kirpnick on June 
3, 1998. Unfortunately, these actions and threats may be 
repeated in the future by those who amass the power and money 
involved in drug trafficking. We can see how brazen they have 
gotten now, to publicly declare that we have $200,000 bounties 
on the heads of U.S. law enforcement officials.
    There exists today a clear and present danger to our men 
and women of law enforcement along the Southwest border. My 
concern is that by not demanding more of our Mexican 
colleagues, we allow these tragedies to continue.
    Tomorrow, we expect the administration to release its 
annual certification determinations. I have a difficult time 
believing that this administration would certify Mexico as 
fully cooperating with the law enforcement efforts of the 
United States in stopping drugs. It troubles me to think that 
we have set a standard, and Mexico has failed to meet that 
standard again and again, and yet the administration turns a 
blind eye to the obvious: There is no satisfactory cooperation 
with the Government of Mexico on the narcotics issues.
    I am sensitive to the fact that our trading relationship 
with Mexico is vital. However, we must not forget the thousands 
of lives that are lost each year to drugs, the cost to our 
society, the impact and devastation to so many American 
families. As representatives of the people, we owe them this 
effort. We owe them this oversight hearing and we owe them the 
truth. It is more than our job, it is our duty, and I don't 
think that we should shrink from it.
    Finally, in the last year, Mexico hired an army of 
Washington lobbyists and slick Madison Avenue types to 
influence both Congress and mask the drug rot that is coming 
from that nation. In this process, they have even helped 
corrupt the decertification process, which dismays me.
    Behind closed doors, U.S. officials will tell you how the 
corruption has destroyed, and is destroying, that democracy. 
And it is rather sad and we see how corruption has now--such as 
the brazen killing of this police chief just, in the last few 
days, turned to extreme violence in murdering families, 
standing men and women up and machine-gunning them down.
    So Mexico can hire people to defeat this process. They can 
mask the drug rot, as I said, but the plain facts are that the 
situation has gotten out of control. Even the United States 
Ambassador to Mexico was quoted in the last week, I believe, 
Jeffrey Davidow, his quote was that ``Mexico is the world 
headquarters of narcotics trafficking.'' I am glad to see that 
someone has publicly stood up and called it as it is.
    Again, we are back here a year later looking at Mexico's 
cooperation in this effort, and I am not pleased to what I see.
    I would like to yield at this time to the ranking member 
from Hawaii, Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]

    [GRAPHIC] [TIFF OMITTED] T6877.002
    
    [GRAPHIC] [TIFF OMITTED] T6877.003
    
    [GRAPHIC] [TIFF OMITTED] T6877.004
    
    [GRAPHIC] [TIFF OMITTED] T6877.005
    
    Mrs. Mink. Thank you, Mr. Chairman.
    These hearings are very important, although perhaps 
somewhat premature, because the announcement from the State 
Department has not been issued, and will not be, until 
tomorrow. But given the fact that we have only 30 days in 
Congress in order to discuss this issue and to make a decision 
as to whether we agree or disagree with the administration, I 
believe it is appropriate to begin the hearings today to try to 
examine what has happened in the last 12 months.
    I think it is important that we rely upon facts that we 
have gathered in the last 12 months in making our assessment 
and in discussing the issues that are before Congress. What 
happened beyond that time, previous, I do not believe is 
germane to the issue.
    The issue is whether the requirements and standards and 
conditions that the United States felt were fair--fairly 
imposed upon Mexico have in fact been adhered to, or at least 
some measured progress to meet those standards; and that is the 
job and task that is before the Congress, to look at the 
recommendations of the administration and to make our own 
independent judgment.
    Much is dependent upon an objective, fair assessment of the 
situation because, as you know, the United States and Mexico 
share a common border and not only a common border, but a 
common economy. The United States is Mexico's most important 
customer and we purchase a tremendous, wide array of goods and 
services that are necessary for their economy. The United 
States also provides about 62 percent of Mexico's imports, so 
we are an important trading partner.
    Nevertheless, it is not that trading partnership that is 
under examination today, nor should it weigh in as a factor in 
deciding whether the decertification should be insisted upon or 
whatever the administration recommends.
    There is no doubt that the country of Mexico is a principal 
transit country for 50 to 60 percent of the cocaine and up to 
80 percent of the methamphetamine precursor chemicals. It is 
also a major producer of marijuana and heroin and may be 
responsible for up to 30 percent of heroin and 70 percent of 
foreign-grown marijuana entering the United States.
    It is highly unusual, in my understanding of international 
relations, for our country or any other country to interpose 
standards of conduct upon another foreign nation. But that is 
not the issue in these examinations. The issue is the impact 
upon our citizens of an uncontrolled quantity of drugs coming 
across the border.
    I have said in numerous hearings that the United States has 
an equal obligation to inquire as to the efficacy of our own 
law enforcement agencies and the standards that we lay in 
examining to what extent we are capable and insistent upon 
interdicting and arresting and putting the full force and power 
of our law enforcement agencies against these unconscionable 
intrusions of drugs into our communities. We have a job to do 
to decrease demand, to insist upon prevention and treatment; 
and so, as we examine the implications of Mexico's conduct or 
failure of conduct, we need to also closely examine our own 
situation within the United States.
    These are very serious deliberations. I hope that they are 
not done in any partisan way to seize political advantage over 
the issue. This question is far too serious for that type of 
approach. We need to look at the facts. We need to examine the 
fairness of our evaluation and to seriously consider all 
aspects of this issue.
    It is an important question that Congress has laid 
appropriately before the people of this country, through the 
Congress, and I believe that this subcommittee is fully 
prepared to exercise that nonpartisan decisionmaking 
responsibility that it undertook several years ago.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Hon. Patsy T. Mink follows:]

    [GRAPHIC] [TIFF OMITTED] T6877.006
    
    [GRAPHIC] [TIFF OMITTED] T6877.007
    
    Mr. Mica. I thank the ranking member and remind members of 
the subcommittee, that on Monday we will be in California and 
Sacramento at the request of Mr. Ose on narcotics trafficking, 
a field hearing; and on Tuesday we will be at the United 
States-Mexican border conducting a hearing--I believe it is in 
Mr. Bilbray's district in San Diego--on continuation of this 
issue. All members are invited to attend and participate.
    Mr. Gilman, thank you for being here, and you are 
recognized.
    Mr. Gilman. Thank you, Chairman Mica. I want to thank you 
for conducting this timely hearing prior to the 
administration's acting on certification in Mexico.
    Regrettably, the administration for many years has failed 
to apply the law faithfully when it comes to its annual March 1 
annual certification of Mexico's antidrug cooperation; and 
despite our Ambassador to Mexico Jeffrey Davidow's statement 
just last week, ``The fact is that the headquarters of the drug 
trafficking world are now in Mexico,'' we expect that this year 
is not going to be any different.
    The State Department's assessment of Mexico's antidrug 
performance is simply not objective. Our diplomats are resigned 
to writing annual assessments that place Mexico's 
unsatisfactory cooperation in the best possible light. Our 
Nation is ill-advised and ill-served when the bureaucracy feels 
obliged to help our President paint an inaccurate picture of an 
issue as important as Mexico's cooperation in our joint fight 
against drugs.
    Drug Czar General Barry McCaffrey has raised the drug 
policy to a high art, and after years of high-level 
cooperation, including a trumpeted 1997 joint analysis, United 
States and Mexican officials do not even agree on how extensive 
the drug problem is or whether it is getting any better or 
worse. Our governments have yet to agree on how to implement 
the highly touted ``performance measures of effectiveness'' 
which are intended to assess real progress toward our common 
strategy for combating drugs.
    Moreover, despite the honesty and cooperation of some 
senior Mexican antidrug officials, improvements in eradication 
and recent maritime seizures, there has been no major progress 
in uprooting the drug cartels that are doing business with 
virtual impunity in Mexico.
    We respectfully call the following salient facts to the 
attention of our Secretary of State, including the following.
    Mexico's counternarcotics efforts are hamstrung by overly 
centralized decisionmaking, by appalling inefficiency and by 
rank-and-file law enforcement corruption. A good example of 
those problems is found in the Mexican Government's much-
heralded arrest of Amezcua cartel officials in October 1998. 
Two lawyers in the Mexican attorney general's office allowed a 
corrupt drug informant in that case, Gilberto Garcia, to walk 
free in Cancun in exchange for a suspected cash bribe. Mr. 
Garcia may be in custody and waiting extradition, but neither 
of these officials was prosecuted for their apparent 
complicity, confirming the worst suspicions about the 
vulnerability of even-handed, vetted units.
    The highly touted Special Investigative Unit [SIU], has 
virtually been shut down as part of a dispute between Mexico 
and United States officials about how we should be screening 
SIU members. Mexican authorities, apparently fearing that 
wiretaps might snare corrupt officials, are said to have 
further rendered the SIU impotent.
    Situations in Mexico continue to deteriorate rapidly. Drug 
kingpins, few of whom have been extradited to our Nation, 
operate with virtual impunity in Matamoros and Ciudad Juarez 
and Cali and Tijuana, Baja California and Norte. These drug 
traffickers operate as virtual feudal lords in border Sierra 
states, corrupting or hand-picking local government officials.
    Our own law enforcement agents are in constant mortal 
danger from these traffickers. Despite years of our Nation's 
pleas, Mexico refuses to authorize our law enforcement agents 
to legally carry arms to defend themselves. As if we needed 
more evidence of the danger to our good antidrug agents, we now 
have the news that Chairman Mica just recited, that Tijuana 
Police Chief Alfredo de la Torre was driving to his office this 
past Sunday when gunmen using rifles and 9-mm pistols pulled up 
along side his black suburban and fired 99 rounds into the car, 
killing him.
    Mexico's position on this matter defies logic. It is 
apparent from all of the facts that we have seen and heard, the 
administration is going to have to do more than just talk about 
Mexico's cooperation.
    Talk is cheap. The cost to our young people for the 
increased manufacture and distribution of cocaine and heroin 
and methamphetamines, the emergence of Mexican criminal groups 
and the intelligence gaps simply are too high a price to pay. 
Much is going to have to be done to improve our relationship 
with Mexico in our drug war and much more should be done before 
we certify Mexico.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman.
    I recognize now Mr. Tierney from Massachusetts.
    Mr. Tierney. Mr. Chairman, I thank you for having this 
hearing and just associate myself with the remarks of the 
ranking member.
    Mr. Mica. Thank you.
    I recognize Mr. Hutchinson.
    Mr. Hutchinson. Thank you. I will try to be brief.
    I thank the witnesses for being here today and I am 
grateful for this hearing. I returned from Mexico in January--
very instructive--and I think about two things that really 
struck me as I was there.
    One, methamphetamine is a serious problem in Arkansas, and 
my drug director in Arkansas said 50 percent of our 
methamphetamine comes from Mexico. I was in Guadalajara, and I 
asked the Mexican officials--I said how many lab seizures did 
you have, and the answer was somewhere between 15 and 30. I 
said was that just in Guadalajara, and they said, no, that is 
the entire country of Mexico. In Arkansas, we had over 500 lab 
seizures last year, and that sort of points up the contrast as 
to how you measure success, perhaps.
    The other thing that struck me was before I went there I 
asked the DEA--and I trust Mr. Ledwith will correct me--as to 
how much aid we give to Mexico; and I believe it is about $17 
million in antinarcotics efforts. In contrast, we are talking 
about sending down to Colombia one-point-some billion dollars, 
and Mexico is in the $17 million range; and of course the other 
thing that is amazing, the Mexican Government didn't ask for 
more money.
    I think the issue is, how can we improve performance? How 
can we improve cooperation? How can we bring Mexico into being 
a part of our cooperating countries to a higher level in 
working with the United States, working with our DEA, working 
with our extradition efforts?
    I was just reading the material, and the striking statistic 
of the Attorney General, who indicated, I think, 1,400 Mexican 
law enforcement officials were dismissed for corruption over a 
couple-year period. I was delighted that the report I get is 
that the American businesses there are starting to put pressure 
and demanding more action by the Mexican Government. American 
businesses are used to dealing in a society that has or 
respects the rule of law, and we have to be able to develop 
that there.
    So I am just citing that as a little background and some of 
the observations that I had.
    I look forward to the testimony of the witnesses and 
addressing how we can improve our cooperation and our success 
rate, protect the DEA and really bring them in, the Mexican 
Government, bring them in to joining our effort in fighting 
drugs.
    I yield back the balance of my time.
    Mr. Mica. I thank the gentleman.
    Now we will turn to our first panel. The first panel 
consists of Mr. William Ledwith. He is the Director of 
International Relations for our Drug Enforcement 
Administration. We also have Ms. Mary Lee Warren, Deputy 
Assistant Attorney General, Criminal Division of the Justice 
Department; and Mr. John Montoya, he is with the U.S. Border 
Patrol, Sector Chief from Laredo. Welcome to all of our 
witnesses.
    As you know, this is an investigations and oversight 
subcommittee of Congress and of the Government Reform 
Committee. We do swear in our witnesses.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative.
    We have at least one new witness here today and two 
veterans. We try to limit your remarks. We won't run the clock 
this morning since we have two short panels, but if you have 
lengthy documentation or information you would like to have 
made part of the record, we will do that upon unanimous 
consent.
    At this time, I am pleased to recognize Mr. William 
Ledwith, Director of International Operations for DEA.
    Welcome and you are recognized, sir.

   STATEMENTS OF WILLIAM LEDWITH, DIRECTOR OF INTERNATIONAL 
 OPERATIONS, DRUG ENFORCEMENT ADMINISTRATION; MARY LEE WARREN, 
     DEPUTY ASSISTANT ATTORNEY GENERAL, CRIMINAL DIVISION, 
  DEPARTMENT OF JUSTICE; AND JOHN MONTOYA, U.S. BORDER PATROL 
                      SECTOR CHIEF, LAREDO

    Mr. Ledwith. Good morning, Chairman Mica, Congresswoman 
Mink, and other distinguished members of the subcommittee. I 
appreciate the opportunity to appear before the subcommittee 
today to discuss the issue of the United States and Mexican 
counternarcotics efforts.
    I would like first to thank the subcommittee for its 
continued support of the Drug Enforcement Administration and 
overall support of drug law enforcement. Thank you.
    My testimony today will provide you with an objective 
assessment of the law enforcement issues and concerns 
surrounding the drug threat posed by international drug 
trafficking organizations operating from Mexico. As you are 
aware, DEA's primary mission is to target the highest, most 
sophisticated levels of international drug trafficking 
organizations operating today.
    Due to the ever-increasing legitimate cross-border traffic 
and commerce between the United States and Mexico, several 
Mexico-based international organized crime groups have emerged 
and flourished. In fact, recent reporting indicates that the 
United-States-Mexican border remains a major point of entry for 
approximately 70 percent of all illicit drugs smuggled into our 
country. These groups have established elaborate smuggling 
infrastructures on both sides of the border. Furthermore, these 
criminal organizations spawn violence, corruption and 
intimidation that threaten the safety and stability of our 
cities and towns across America.
    Following the dismantling of the Medellin drug cartel 
during the late 1980's, the Cali drug cartel formed an alliance 
with Mexican trafficking groups in order to stage and transport 
drugs through Mexico and across the Southwest border. With the 
disruption of the Cali syndicate during the early part of the 
1990's, Mexican trafficking groups consolidated their power and 
began to control drug trafficking along the United States-
Mexican border. In response to the emergence of these Mexican 
drug trafficking organizations, it became apparent that a 
coordinated strategy for law enforcement counterdrug activities 
be implemented. DEA in concert with other Federal agencies 
established the Southwest border initiative, an integrated, 
coordinated law enforcement effort designed to attack the 
command and control structure of organized criminal operations 
associated with the Mexican federation. This strategy focuses 
on both intelligence and enforcement efforts which target drug 
distribution systems within the United States, and direct 
resources toward the disruption of those principal drug 
trafficking organizations. A vital component of this strategy 
involve the formation of a joint DEA, DOJ, FBI and U.S. Customs 
Service project that resides within DEA's Special Operations 
Division. Its mission is to coordinate and support regional and 
national criminal investigations and prosecutions against the 
trafficking organizations that most threaten the United States.
    Two sections that are the heart of the Southwest border 
project have focused their efforts exclusively on the principal 
Mexican drug trafficking organizations. They aim at the command 
and control networks of these identified organizations and 
their supporting groups.
    One such example of the effectiveness of this SOD component 
was Operation Impunity, which is a 2-year international 
investigation that culminated in the arrest of over 106 
individuals linked to the Carrillo-Fuentes drug trafficking 
organization headquartered in Cancun, Mexico. The investigation 
encompassed 53 DEA, FBI and U.S. Customs Service case 
investigations incorporating 14 Federal judicial districts. In 
addition to the arrests, this investigation has resulted in 36 
seizures, netting some 12,434 kilograms of cocaine, half a kilo 
of heroin, 4,800 pounds of marijuana and more than $19 million 
in U.S. currency.
    Operation Impunity resulted in unparalleled coordinated and 
cooperative effort among the law enforcement community of the 
United States. Within Mexico, the DEA and the Government of 
Mexico's equivalent to the DEA, FEADS, continued to conduct 
joint investigative endeavors throughout Mexico. The joint 
investigations are being conducted with the two primary 
investigative components of the FEADS-vetted units, the 
sensitive investigative units and the base intelligence units.
    The achievements of the BIU and the SIU, as related to 
cases against the major Mexican drug trafficking organizations, 
are minimal. The inability of these units to fully employ the 
provisions of the organized crime law, to promptly investigate 
these major organizations, has been equally disappointing.
    As has been discussed and testified to previously, it is no 
secret that elements of the Mexican Government have been mired 
in corruption for years. In fact, the Federal preventive police 
was created in 1999 in response to the existing corruption 
within the police ranks. The Government of Mexico reported 
since April 1997, more than 1,400 of the 3,500 Federal police 
officers have been fired for corruption and 357 of the officers 
have been prosecuted.
    Perhaps the most alarming incident involving Mexican police 
officials occurred on November 9, 1999, when a DEA special 
agent and an FBI special agent were debriefing a confidential 
source in Matamoras, Mexico. During the course of this 
debriefing, the special agents and the confidential source were 
surrounded and physically threatened by documented Mexican 
trafficker Osiel Cardenas-Guillen and approximately 15 armed 
associates. Each of these associates, one of whom was 
brandishing a gold-plated automatic assault weapon were either 
municipal or state police officers.
    Furthermore, despite monitoring the entire incident over 
the DEA agent's special cellular telephone, who had called to 
request assistance, the state judicial police commander took no 
action. Due only to their resourcefulness and ability to 
diffuse this potentially fatal encounter were the agents and 
the confidential source able to survive unharmed.
    Among other issues, this incident highlights the 
vulnerability of DEA and FBI special agents working in Mexico. 
Recently, however, judicial efforts to stop corruption are 
under way. On January 11, 2000, a Mexican Federal judge issued 
an arrest warrant for the magistrate who wrongly freed a 
methamphetamine trafficker. Then on February 3, 2000, the 
Mexican Federal supreme court ruled that the suspended Morelos 
Governor, Jorge Carrillo-Olea, could be brought to trial for 
protecting drug trafficking and kidnapping activities. Olea, a 
retired general and former director of Mexico's civilian 
intelligence agency and former antidrug commissioner for the 
attorney general's office, was ordered by the Federal supreme 
court to be placed under house arrest by the PGR. The PGR, 
however, has yet to take him into custody. This is the first 
time the Federal supreme court ruled to refer a Governor or 
executive branch official to trial.
    Although a treaty has been in existence with Mexico since 
1978, no extradition requests were signed by the Mexican 
foreign relations ministry until 1996. Consistent with this, no 
major drug traffickers were extradited to the United States in 
1999. The Mexican Government did extradite 10 fugitives on 
narcotics-related or money-laundering offenses during 1999, 
eight United States citizens and two Mexican citizens. One 
Mexican citizen, a low-level drug trafficker, was sought on 
drug charges after escaping from a United States prison while 
serving a sentence on drug-related crimes. The other Mexican 
citizen, who had killed a United States Border Patrol agent, 
was sought on murder and marijuana smuggling charges.
    In conclusion, Mexico is a country of great strategic 
importance to the United States, and counternarcotics is one of 
the most critical aspects of that relationship. The 
effectiveness of national and bilateral efforts against drug 
organizations will depend largely on demonstrable process and 
disrupting and dismantling these transnational narcotics 
trafficking organizations. This includes apprehending, 
prosecuting and convicting major drug traffickers and exposing 
and prosecuting individuals and businesses involved in 
providing critical support networks such as front companies, 
security, transportation and the like. Therefore, it is vital 
for the DEA, along with other U.S. Government agencies, to 
continue to support the Government of Mexico in the field of 
counternarcotics operations. In turn, however, it is hoped that 
the Government of Mexico will provide adequate investigative 
manpower, financial resources, equipment, and reciprocal drug 
intelligence in support of bilateral drug law enforcement.
    DEA will continue to promote bilateral cooperation to 
improve law enforcement. It is abundantly clear that concerted 
law enforcement efforts such as Operation Impunity, will 
significantly improve our ability to counter and eliminate 
transnational drug trafficking organizations.
    I want to thank you for the opportunity to testify before 
the committee today. I will be happy to answer any questions 
you have. Thank you.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Ledwith follows:]

    [GRAPHIC] [TIFF OMITTED] T6877.008
    
    [GRAPHIC] [TIFF OMITTED] T6877.009
    
    [GRAPHIC] [TIFF OMITTED] T6877.010
    
    [GRAPHIC] [TIFF OMITTED] T6877.011
    
    [GRAPHIC] [TIFF OMITTED] T6877.012
    
    [GRAPHIC] [TIFF OMITTED] T6877.013
    
    [GRAPHIC] [TIFF OMITTED] T6877.014
    
    [GRAPHIC] [TIFF OMITTED] T6877.015
    
    [GRAPHIC] [TIFF OMITTED] T6877.016
    
    [GRAPHIC] [TIFF OMITTED] T6877.017
    
    [GRAPHIC] [TIFF OMITTED] T6877.018
    
    Mr. Mica. We will withhold questions until we have heard 
from all of our panelists.
    The next witness is Mary Lee Warren, Deputy Assistant 
Attorney General with the Criminal Division of the Justice 
Department.
    You are recognized, and welcome.
    Ms. Warren. Thank you, Mr. Chairman, ranking member and 
esteemed members of this subcommittee. I am pleased to return 
as a veteran before the subcommittee on these matters of great 
importance. Because the other agencies have been called to 
testify, I have tried to focus my remarks today on the United 
States-Mexican fugitive relationship, extradition and 
deportation; and I ask that my full written statement be 
received for the record.
    Mr. Mica. Without objection, so ordered.
    Ms. Warren. I will do my best to respond to other inquiries 
on other topics that arise during the proceedings.
    First, as to extradition, to put my testimony in context, 
prior to 1995, there had only been a handful of extraditions 
from Mexico under our 1978 extradition treaty. Since the 
beginning of the Zedillo administration and the 5-plus years 
after that, there have been enormous improvements in the 
bilateral treaty implementation between our two countries that 
resulted in the extradition from Mexico of 58 individuals, 
including, for the first time in history, seven Mexican 
nationals charged with or convicted of crimes in this country; 
and over the same period of time, the United States has 
extradited 85 fugitives, including 12 United States citizens, 
to Mexico.
    The 1999 figures, as reviewed by Mr. Ledwith, 14 
individuals from Mexico to the United States, including 2 
Mexican nationals; from the United States to Mexico, 16 
individuals including 1 United States citizen. A fact that has 
not gone unnoticed, Mexico has still not extradited a major 
drug trafficker of Mexican nationality. Accused methamphetamine 
kingpins Jesus and Luis Amezcua and Tijuana cartel lieutenant 
Arturo ``Kitti'' Paez Martinez remain in custody in Mexico as 
their extradition cases wind through the extradition process.
    Others whose extraditions we sought and, unfortunately, the 
courts rejected either have been released, such as Jaime Ladino 
Avila, an Amezcua brother methamphetamine lieutenant, and 
Florentino Blanco Mesa, an Arellano Felix organization 
enforcer. Or others who are being prosecuted by the Mexican 
authorities domestically, such as Jaime Gonzalez Castro, a 
Sonoran trafficker who brought enormous quantities of drugs 
into Arizona; and Oscar Malherbe, who was arrested in 1998 and 
the court decided in 1998 he would not be extradited--he was 
No. 2 in the Gulf cartel--they are proceeding against him 
domestically.
    We are not optimistic about the outcomes of those domestic 
prosecutions. Our evidence, such as court-authorized wiretaps 
and coconspirator testimony, are not given the same persuasive 
weight in the Mexican courts as they are here where that 
evidence was collected. The Mexican attorney general's office 
and their foreign ministry have taken a vigorous stance in the 
``Kitti'' Paez Martinez case before the Mexican supreme court, 
asking their highest court to reject the intermediate court's 
flawed rationale seen in the Jaime Gonzalez Castro case and the 
Oscar Malherbe case that Mexican nationals must be prosecuted 
domestically and not extradited.
    We and the Mexican authorities remain hopeful that the 
Mexican supreme court will decide the ``Kitti'' Paez Martinez 
case in favor of extradition and resolve this issue once and 
for all. But for now, the extradition results in the Mexican 
courts are disappointing to the Justice Department, a sentiment 
that I know is shared by the Mexican authorities and by the 
members of this subcommittee.
    In an attempt to clarify a lingering issue which has been 
raised before this subcommittee and by other Members of 
Congress, we have been asked on several occasions to give the 
total number of fugitives that are pending in each country's 
file cabinets. This number is somewhere in the several hundred 
range for each side. However, I suggest this is not a 
meaningful number. Both the United States and Mexico have 
backlogs of extradition requests that are so old that either 
our location information about the fugitive is no longer of use 
or, for others, the cases may no longer be prosecutable, either 
due to loss of witnesses or the like.
    To address this problem, Mexico and the United States 
initiated a joint program to reconcile and prioritize our 
outstanding extradition requests and to exchange lists of our 
active and priority cases.
    Those cases that still logically and realistically can and 
should be prosecuted by the other government and those that may 
be older, but are nonetheless of such significance to the 
requesting country to demand continuing attention and pursuit. 
For example, the fugitive sought for the murder of the DEA 
agent and a fugitive sought for the murder of a Phoenix police 
officer.
    As a result of this cooperative undertaking, both Mexico 
and the United States can now accurately report to this 
subcommittee that we each have approximately 125 active and 
priority extradition cases pending before one another at any 
given time.
    Let me raise with this subcommittee some recent court 
decisions in Mexico that cause us great concern. The first is 
Florentino Blanco Mesa, whose extradition we sought for the 
Southern District of California for his involvement with the 
Arrellano Felix organization. He was released in Mexico on the 
grounds that the SRE, their foreign ministry, had not fully 
explained its reasons for finding the case exceptional enough 
to warrant the extradition of a Mexican national, and had not 
sufficiently reviewed the extradition package to correct what 
we believe were hypertechnical flaws, such as the absence of 
the translation on the seal of the package--extraordinary 
things that have never been asked for before and are certainly 
not part of their extradition requests to us. It seemed to be 
an occasion of a court reaching to find a decision.
    In another case, that of Jaime Ladino Avila, an Amezcua 
brother lieutenant whom we are seeking to face methamphetamine 
trafficking charges, extradition was denied because the court 
in his case found that the potential imposition of a life 
sentence in the United States would violate the Mexican 
constitution and Mexican extradition law, and that the SRE 
should have requested an assurance from us that no such 
sentence would be imposed.
    The United States-Mexican extradition treaty allows the 
parties to request assurances against the imposition of the 
death penalty, but contains no similar provision as to life 
imprisonment. If other courts in Mexico should find the Ladino 
court's reasoning persuasive, we will face enormous and perhaps 
insurmountable difficulties in securing the extradition from 
Mexico of the full range of serious criminals that we seek. 
Major traffickers are facing life imprisonment under our 
sentencing schedule here in the United States and the State 
crime violators, those who have committed murder, are certainly 
facing up to life in State prison.
    Moreover, this ruling in the Ladino case is not limited to 
Mexican nationals and therefore could be applied to United 
States citizens or to third-country nationals, even though such 
individuals could not be prosecuted domestically under their 
article 4. Under that particular provision that allows them to 
prosecute Mexican nationals, it is that nationality that grants 
jurisdiction to the Mexican courts. There would be no 
jurisdiction for the U.S. citizens or third-country nationals.
    These decisions are profoundly disturbing to us and our 
Mexican colleagues alike. They understand the vital 
significance of a vigorous and reciprocal extradition 
relationship in our efforts against drug trafficking and 
violence.
    Once more, I can give this subcommittee assurances that 
these concerns have been and will continue to be raised at the 
highest levels of our government with our Mexican counterparts, 
for example, through upcoming consultations between Attorneys 
General Reno and Madrazo in the next few days and during the 
Binational Commission meetings involving several Cabinet 
officers from the two countries scheduled for mid-May.
    Returning now to the deportation issue in May of last year, 
I was pleased to be able to report to this subcommittee that 
Mexico, working with the United States Marshals Service and the 
FBI, our Embassy in Mexico City, had significantly enhanced its 
program for deporting or expelling United States citizens who 
were in violation of Mexican immigration laws and who at the 
same time were sought as fugitives from United States justice. 
These enhanced efforts in 1998 led to the deportation of over 
30 such individuals. I advised in my later testimony last year 
that we had seen a disturbing trend downward in those 
deportation numbers. This negative trend continued and the 
Marshals Service reported only nine successful cooperative 
deportations from Mexico in 1999, and so far, there have been 
no improvements in 2000.
    The best we can discern as a reason for the decline in the 
deportations and expulsion is an apparent renewed preference 
for the use of the extradition treaty to affect the return of 
fugitives and the desire by certain officials within the PGR 
and the SRE to be the central points for all returns--and the 
deportations come through the immigration officials.
    As with extradition, the Department of Justice and, in 
particular,
Attorneys General Reno and Madrazo are committed to doing 
everything possible to reinvigorate the commitment to use 
deportation whenever it is the most effective and expeditious 
legal mechanism for promoting the interests of justice.
    As I noted, I wanted to focus on extradition and 
deportation in this oral testimony. I will try to respond to 
your questions.
    Mr. Mica. Thank you.
    [The prepared statement of Ms. Warren follows:]

    [GRAPHIC] [TIFF OMITTED] T6877.019
    
    [GRAPHIC] [TIFF OMITTED] T6877.020
    
    [GRAPHIC] [TIFF OMITTED] T6877.021
    
    [GRAPHIC] [TIFF OMITTED] T6877.022
    
    [GRAPHIC] [TIFF OMITTED] T6877.023
    
    [GRAPHIC] [TIFF OMITTED] T6877.024
    
    [GRAPHIC] [TIFF OMITTED] T6877.025
    
    [GRAPHIC] [TIFF OMITTED] T6877.026
    
    Mr. Mica. We will now hear from Mr. John Montoya. He is 
with the U.S. Border Patrol. He is a Sector Chief for Laredo.
    Welcome, and you are recognized, sir.
    Mr. Montoya. Good morning, Mr. Chairman, Congresswoman 
Mink, Congressman Hutchinson and other distinguished members of 
the subcommittee.
    I am John Montoya, Chief Patrol Agent of the Laredo Sector 
of the U.S. Border Patrol. I appreciate the opportunity to give 
you an overview of the Laredo Sector and also to thank you for 
your concern and support over the years. I want to present to 
you the areas where I believe we have been successful and also 
give you some insight where I feel there is still a threat to 
our operations.
    Our agents are diligently performing their duties every day 
in an environment that is becoming more dangerous and 
threatening because of alien and narcotics smugglers. In 
addition, the agents protect our national security by the 
arrest of individuals who enter this country illegally and who 
may pose a terrorist threat to our communities.
    The Laredo Sector covers 171 miles of river border and is 
comprised of eight stations. The Laredo Sector has 690 Border 
Patrol agents, 12 antismuggling agents, 13 detention 
enforcement officers and 131 support positions on duty. 
Currently 555 of these agents are assigned in the three 
stations immediately and directly adjacent to the river. All 
agents receive 20 weeks of intensive training at the Federal 
law enforcement training center in Glynco, GA, and at the 
Border Patrol Academy in Charleston, SC. The training includes 
law, Spanish, physical training and firearms training. They are 
equipped with semiautomatic handguns, automatic long guns, body 
armor, portable and mounted night vision equipment.
    Based on effective operations to control the border in El 
Paso and San Diego, the Border Patrol and INS initiated 
Operation Rio Grande in South Texas in August 1997. Our 
strategy in the Laredo Sector targeted a 4-mile area where 
approximately 70 percent of all illegal entries were occurring 
within the sector. Within this 4-mile stretch of river, agents 
were placed in a high-visibility posture at 16 intensely 
trafficked crossing points.
    As Operation Rio Grande has continued and additional 
resources have been received, the deployment area has been 
extended to 14\1/2\ miles. Since the onset of Operation Rio 
Grande, apprehensions of illegal aliens have diminished by 66 
percent within the deployment area. In addition, narcotics 
apprehensions have become almost nonexistent and crime rates 
have also been reduced within this area.
    Aliens that are turned over to the Border Patrol by other 
agencies have also decreased by 33 percent. However, there has 
been a definite shift of illegal traffic from the deployment 
area to the flanks in both aliens and narcotics. This has been 
increasing as the operation continues. Our Laredo North Station 
continues to apprehend large groups of 25 and more as smuggling 
operations are forced away from the deployment areas.
    The Laredo Sector is greatly affected by all criminal 
activity in the area, but more so by smuggling activity. This 
sector has identified 27 alien smuggling organizations and 25 
narcotics smuggling organizations that operate within the 
confines of the Laredo Sector. These organizations have the 
capability to smuggle in excess of 6,000 aliens and multi-tons 
of narcotics per month.
    Coordination with Mexican law enforcement agencies is 
complicated by both the number of Mexican law enforcement 
agencies and frequent turnover within these agencies. To 
overcome this, we recently formalized an arrangement whereby 
the Laredo Border Patrol has a single point of contact with 
Mexican law enforcement agencies through the Mexican 
Immigration Service.
    Furthermore, of major concern are recent incidents 
involving Mexican authorities. In one incident, for example, a 
Mexican municipal police officer fired shots toward the United 
States side following pursuit of an individual. This incident 
has been addressed with the Mexican Consul and American Consul 
and the relevant Mexican police authorities. However, it 
underscores the tensions and the dangers that our agents face 
on a daily basis.
    Laredo Sector has employed a twofold approach to its 
operations to include narcotics interdiction and education in 
order to battle the influence of drugs in the sector area. 
Interdiction efforts take place along the river with special 
response teams, normally outside the deployment area and on 
highway checkpoints. The sector has a Drug Demand Reduction 
Education Program comprised of agents who visit schools and 
organizations that are connected with children. The agents make 
presentations on the dangers of drugs and drug use. Agents 
assigned to the program made presentations to over 820 children 
and 180 adults just in the month of January 2000.
    The education of our children against the use of illegal 
drugs is important to the entire United States. If we, as a 
country, can eliminate the supply and demand of this evil, we 
would be able to prevent the decay or death of our youth.
    The Laredo Sector has a history of aggressively pursuing 
and supporting technology that will help accomplish the mission 
in a safer, more efficient manner. The sector has had great 
success with night vision technology through scope trucks, 
individual agent night vision goggles, and fixed camera sites 
which afford agents the advantage of knowing who and how many 
individuals they are encountering and if they are armed.
    We must never lose sight of the fact that the ultimate 
resource in achieving success is the men and women who are on 
the line. The ability to continue to phase in an Operation Rio 
Grande is paramount to achieving the success that this sector 
and service set out to accomplish since the inception of the 
strategy.
    On behalf of all the men and women of the U.S. Border 
Patrol, I thank you for this opportunity to testify before you 
today. I would be pleased to answer any questions you may have 
at this time. Thank you.
    [The prepared statement of Mr. Montoya follows:]

    [GRAPHIC] [TIFF OMITTED] T6877.027
    
    [GRAPHIC] [TIFF OMITTED] T6877.028
    
    [GRAPHIC] [TIFF OMITTED] T6877.029
    
    [GRAPHIC] [TIFF OMITTED] T6877.030
    
    [GRAPHIC] [TIFF OMITTED] T6877.031
    
    [GRAPHIC] [TIFF OMITTED] T6877.032
    
    [GRAPHIC] [TIFF OMITTED] T6877.033
    
    [GRAPHIC] [TIFF OMITTED] T6877.034
    
    [GRAPHIC] [TIFF OMITTED] T6877.035
    
    [GRAPHIC] [TIFF OMITTED] T6877.036
    
    [GRAPHIC] [TIFF OMITTED] T6877.037
    
    [GRAPHIC] [TIFF OMITTED] T6877.038
    
    [GRAPHIC] [TIFF OMITTED] T6877.039
    
    Mr. Mica. Thank you, Mr. Montoya. I will ask the first 
question.
    We have this headline--I think you are familiar with it; it 
says Drug Traffickers Set Bounty on Agents, offering $200,000. 
I guess they were after Border Patrol folks.
    What is your response to that particular threat?
    Mr. Montoya. Well, we became apprised of the threat, or the 
information and the intelligence on threat. We immediately 
placed our officers, our agents, on alert. We made contact with 
all the law enforcement community, not only in the Laredo 
Sector, but also with the Mexican authorities.
    This was done and accomplished through our liaison officers 
and also through our informants.
    We take all threats seriously, whether they are directed at 
the Border Patrol or any other law enforcement agency.
    Mr. Mica. Doesn't this represent a more brazen threat by 
drug traffickers to our agents?
    Mr. Montoya. Again, it is very serious. Our agents are 
confronted with many types of threatening situations on a daily 
basis, and when they hear information or are provided 
intelligence that there is someone out there specifically 
targeting them or another law enforcement officer, we do 
respond; we do take the necessary safety precautions to protect 
our agents.
    Mr. Mica. It doesn't appear that it is routine operating 
procedure for them to almost go public with a bounty on our 
Border Patrol agents. Is this a new tactic?
    Mr. Montoya. During my 24 years, Mr. Chairman, with the 
Border Patrol there have been numerous threats made against law 
enforcement agents on the U.S. side; obviously all along the 
border, the most infamous obviously being DEA agent Enrique 
Camarena. During that time period, we were on a high state of 
alert.
    Mr. Mica. What about with this threat? Is this something to 
take seriously or just a media account?
    Mr. Montoya. No, sir. Again, we take all the threats and we 
try to validate the information through the use of informants, 
through our contacts, throughout all agencies both on the 
United States side and the Mexican side.
    Mr. Mica. Is this a valid threat?
    Mr. Montoya. Sir?
    Mr. Mica. You said you try to validate. Is this a valid 
threat to our agents?
    Mr. Montoya. Yes, sir.
    Mr. Mica. It is. OK.
    Do we have any recourse? If somebody harms, kills or maims 
one of our agents, do we have a reward system for information 
leading to them? What is the reciprocity that we have under 
law?
    Mr. Montoya. As far as the--excuse me, Mr. Chairman. Go 
ahead.
    Mr. Mica. I said, are you aware of that?
    Mr. Montoya. Yes, sir. As to the incident itself, we do 
have the ability to pay reward money for information leading to 
the disclosure or the arrest, et cetera, of any individual.
    Mr. Mica. What range? Is that sufficient and is it set by 
law or is it a discretionary amount that you can determine?
    Mr. Montoya. Within my authority, I can only approve up to 
$5,000. From there, it has to go up the chain of command.
    Mr. Mica. How about DEA, Mr. Ledwith? If somebody comes 
after a DEA agent, is there an adequate reward system in place?
    Mr. Ledwith. Yes, sir. There is literally nothing we would 
not do to recover that person who threatened or harmed a DEA 
agent. And yes, sir, there is an ability within the Department 
of Justice.
    Mr. Mica. What are your limits? Mr. Montoya said $5,000 and 
then he needed approval of that, which doesn't appear like much 
of a reward.
    Mr. Ledwith. I am quite convinced, sir, that if there were 
an attack upon a Federal U.S. law enforcement official, we 
would be able to get a very significant amount of money offered 
as a reward. My limits, I can go to the Department of Justice, 
I would think in terms of $500,000 or $1 million would not be 
too low.
    Mr. Mica. Shouldn't that be extended to our border agents 
who are under threat?
    Mr. Ledwith. Well, sir, I can't comment directly, but I 
would imagine by the time a threat or that kind of situation 
arrived in Washington, significant resources would be made 
available.
    Mr. Mica. Do you know if the Department of Justice has a 
policy on this? I just want to see if we have in place a 
mechanism to reciprocate. Because for me, this is unprecedented 
to have our agents publicly threatened in this fashion and a 
bounty put on their heads.
    Ms. Warren. I don't know the procedure specifically for the 
Border Patrol, but I know with the other agencies there is an 
application procedure up through the Attorney General for 
amounts of $1 million.
    Mr. Mica. But we need to make certain that we have adequate 
policy and law in place to make certain that our agents are--I 
don't know if we can protect them, but if they are going to 
threaten them in this fashion and in some way they are put in 
harm's way, we need to be able to retaliate.
    Mr. Ledwith, you described an incident and one that 
concerns me about I believe it was one of our agents, 
surrounded by drug traffickers.
    Mr. Ledwith. Yes, sir, I did. It was a DEA special agent 
and an FBI special agent assigned to our offices in Mexico, 
sir, in November 1999, in Matamoros.
    Mr. Mica. This also appears to be a little bit more brazen. 
They were very fortunate in that they were not harmed. Do you 
see a pattern of more threatening situations to our agents in 
that area?
    Mr. Ledwith. Our men and women that serve overseas, sir, 
sadly I am here to tell you that we have a constant situation 
with threats against our men and women overseas, as do many 
others.
    Mr. Mica. I am interested today in the situation in Mexico.
    Mr. Ledwith. I would say, sir, yes, that it appears to be 
more brazen.
    Mr. Mica. The murder of the police chief seems to be one of 
the most emboldened acts I have witnessed. Am I correct in that 
they also murdered a previous police chief in that area?
    Mr. Ledwith. Yes, sir, you are correct.
    Mr. Mica. What about cooperation? Was your agency involved 
or the FBI in the recovery of the remains from the operation 
inside the Mexican border? Your agents were involved?
    Mr. Ledwith. No, sir. That was principally an FBI 
operation. We provided some support to them.
    Mr. Mica. Are you aware of any pressure to close that 
operation down from the Mexicans?
    Mr. Ledwith. No, sir, I am not personally aware of any.
    Mr. Mica. Are you aware of that operation, Ms. Warren?
    Ms. Warren. Somewhat, yes.
    Mr. Mica. How would you describe the cooperation of the 
Mexican officials in that?
    Ms. Warren. The cooperation through Attorney General 
Madrazo and the PGR was excellent from the very beginning. The 
Mexican media made it very difficult for Attorney General 
Madrazo, but he stated publicly that this cooperation would 
continue. It was such an important effort; and it did continue.
    Mr. Mica. Was there any pressure to close that down?
    Ms. Warren. I know of the storm in the Mexican press that 
was raised against Attorney General Madrazo, but he withstood 
that storm.
    Mr. Mica. Mr. Ledwith, did you have a specific 
recommendation on certification or decertification of Mexico to 
any of your superiors?
    Mr. Ledwith. Sir, the method by which we make a report is 
to the Department of Justice. We do not make recommendations. 
We give a recital, if you will, of the results obtained that 
year and the cooperation that we enjoyed.
    Mr. Mica. Did you review that report as it was presented to 
the Department of Justice?
    Mr. Ledwith. I reviewed the report before it left DEA, sir, 
en route to the Department of Justice.
    Mr. Mica. If I had a copy of that report, would it indicate 
that Mexico is fully cooperating?
    Mr. Ledwith. It would indicate, sir, that Mexico is 
cooperating, but that there are substantial problems.
    Mr. Mica. Would you like to comment on what the problem 
areas are?
    Mr. Ledwith. Well, sir, there would be several areas: the 
extradition of people that we have asked to have extradited; 
the fact that there has not been a major trafficker arrested, 
prosecuted, imprisoned in Mexico in some years; the fact that 
the polygraph program with the vetted units was shut down in 
August of last year due to difficulties with the procedure; and 
the fact that we have had--since 1996, we have not been able to 
utilize the so-called ``commuter agents'' to go into Mexico 
from the border areas and conduct cooperative and bilateral, 
multilateral investigations.
    Mr. Mica. What about the progress in allowing our agents to 
arm themselves?
    Mr. Ledwith. There has not been any progress in that area 
that I am aware of, sir.
    Mr. Mica. You probably wouldn't get into the maritime 
agreement area, would you?
    Are you aware of the maritime agreement? I understand an 
agreement was signed with basically no terms. Are you familiar 
with that, Ms. Warren?
    Ms. Warren. Not familiar enough to answer your questions on 
that. I know we have had some good maritime cooperative success 
in this last year and that the Coast Guard has worked 
vigorously to try and develop parallel operational procedures 
so that they can work together and hand off these cases as best 
as possible; but as to the terms of the agreement, I am not 
familiar.
    Mr. Mica. Mr. Montoya, dealing with Mexican officials in 
your border work, would you describe their actions as fully 
cooperating with you in the antinarcotics effort?
    Mr. Montoya. It has been demonstrated in the short time 
that I have been in Laredo, the last 6 months, we have an 
outstanding relationship with the head of the Mexican 
Immigration Service, who has jurisdiction for crimes committed 
along the immediate border. They act as our go-between with the 
other agencies.
    We have, as I mentioned in my oral testimony, some 
incidents which caused us major concern. With the assistance of 
Mr. Gabriel Cortez, who is the director of Mexican immigration 
in Nuevo Laredo and the Mexican consul, we were able to go to 
the table with these agencies and discuss our concerns in a 
mutual arrangement to prevent future incidents.
    Mr. Mica. You have only been there 6 months?
    Mr. Montoya. Yes, sir.
    Mr. Mica. Is the situation over the border getting better 
or worse as far as trafficking and violence, in your 
observation?
    Mr. Montoya. I can speak to our narcotic seizures within 
the Laredo Sector. The volume of marijuana in the Laredo Sector 
has increased almost 100 percent in just the 4 months of this 
fiscal year.
    Mr. Mica. Your observation of the situation relating to 
trafficking and violence, so the volume has had a 100 percent 
increase in a short period of time. What about violence?
    Mr. Montoya. We have not had any, at least directed at our 
agents, et cetera. However, on the Mexican side there have been 
at least two incidents within the last month that caused us 
this concern.
    Mr. Mica. One final question, Mr. Ledwith. There is a cap 
put on DEA agents in Mexico, which I guess is not public 
information. Do you think the agency would support a resolution 
by Congress or request by Congress to have that cap lifted?
    Mr. Ledwith. Yes, sir. There is a cap on the amount of 
agents we are allowed to have in Mexico.
    Mr. Mica. Given the statement of our United States 
Ambassador and appointing a very qualified man, whom we all 
know, who basically said the headquarters of world narcotics 
trafficking is Mexico; and they imposed a cap a number of years 
ago--I am not sure when that was, but at least since I have 
been on this subcommittee--is it time to lift that cap?
    Mr. Ledwith. Yes, sir, I would say that it would be.
    Mr. Mica. Thank you.
    Mrs. Mink.
    Mrs. Mink. Thank you very much.
    Mr. Ledwith, we have a burden to try to look at both sides 
of this equation, the things that have gone well and are 
effective, and weigh it against those things where there have 
been major failures; the same thing that a jury would have to 
do in finding a preponderance of the evidence, we have to make 
that same examination.
    In reading some of the materials that have been forwarded 
to us, which undoubtedly will be covered by the administration 
in explaining whatever decision they arrive at, my question 
goes to what if the Congress insists upon decertification, or 
what if the administration recommends decertification, what 
impact would that have on the ability of your agency to 
continue the work that it is now doing in Mexico?
    Mr. Ledwith. That's an exceptionally interesting question, 
ma'am. It might be presumptuous of me to answer it. On the one 
hand, I would hope that this would be a message to the 
Government of Mexico to redouble their efforts in many areas. I 
would also be concerned that it might adversely impact on DEA's 
ability to work within that country due to the reaction of the 
Mexican Government.
    Mrs. Mink. Is there any intelligence within your agency, 
that is examining this issue, and was it included in your 
agency's analysis of this problem when it forwarded its 
comments to the administration for decisionmaking?
    Mr. Ledwith. I do not believe in the comments that we 
forward to the Department of Justice on the certification 
issue, that that particular issue was addressed. It certainly 
is the subject of some debate within DEA.
    Mrs. Mink. So the issue is one that has not been weighed in 
in terms of impact? We have to take into consideration that it 
could go either way? It could assist us in insisting upon 
greater cooperation and greater enforcement efforts, or it 
could go the other way; there is no real way that we can 
determine that in advance?
    Mr. Ledwith. I would not be able to advise you as to what 
the ultimate reaction of the Mexican Government would be, no, 
ma'am.
    Mrs. Mink. The next question then is, in one of your 
criticisms of the Mexican Government's failures is that they 
have not apprehended, arrested, tried or convicted any major 
drug trafficker within their country. Is that a true statement, 
what you responded to the chairman's inquiry?
    Mr. Ledwith. Yes, sir, with the possible exception of the 
Amezcua brothers who have been awaiting extradition to the 
United States, the Mexican Government has not captured, tried--
--
    Mrs. Mink. They have extradited certain individuals to the 
United States or allowed their extradition, but they have not, 
on their own, tried a major drug trafficker; is that your 
answer to the question?
    Mr. Ledwith. Yes, ma'am. The Mexican nationals who were 
extradited to the United States would not be classified as 
major drug traffickers. Saying that, the Mexican Government has 
not arrested--certainly not tried or convicted--any major drug 
traffickers in any way.
    Mrs. Mink. How would you explain that and how does that add 
to this quantum of mystery of what would happen if we 
decertified them? If they are not, even under the optimum 
circumstances now of being a major trade partner and having the 
protection of NAFTA and all of these other benefits of a 
renewed interest of collaboration, how do you explain their 
failure to understand the urgency of this issue? And if we did 
decertify, isn't it fair to assume that the failure would be 
even greater and that this situation would be even more 
exacerbated?
    Mr. Ledwith. Yes, ma'am, I suppose that it might well be. 
It would be difficult to arrest less than none.
    Mrs. Mink. I get your point.
    Now, on the other hand, there is this demonstrated activity 
with regard to the eradication of marijuana plants and all of 
those efforts with respect to cultivation and activities in 
that area, and the report goes on to say that these activities 
have greatly enhanced over the past 12 months. Is that your 
observation as well?
    Mr. Ledwith. I would say that the eradication efforts are 
promising, yes, ma'am.
    Mrs. Mink. As against what occurred in 1998, there has been 
vast improvement over the past 12 months?
    Mr. Ledwith. There appears to be an improvement in 
eradication efforts, yes, ma'am.
    Mrs. Mink. So it would be fair to say that this is Mexico's 
answer to our concerns about drug trafficking, that they are 
taking stepped-up measures to eradicate the cultivation, 
production and distribution systems of the drugs within their 
own country, but that that is about it?
    Mr. Ledwith. Yes, ma'am, that certainly would be an 
effective response to the problem of Mexican marijuana and 
Mexican heroin. It in no way impacts on the flow of Colombian 
cocaine through Mexico.
    Mrs. Mink. Now, that's another issue. I don't think it is 
fair to weigh in on Mexico what we have as a separate problem 
with Colombia, that we are now trying to deal with separately, 
as a separate issue.
    While that is true, it travels through Mexico, I think we 
have to look at their own individual situation in making an 
assessment whether to go forward with decertification or not.
    This is an extremely complex issue.
    Now, how many DEA and FBI agents are there in Mexico, or 
are you not allowed to say?
    Mr. Ledwith. I would be able to say that we currently have 
almost 45 DEA agents and six FBI agents.
    Mrs. Mink. Total? That's all total?
    Mr. Ledwith. Yes, ma'am.
    Mrs. Mink. That's the cap that the chairman referred to?
    Mr. Ledwith. We currently have no more than 45 DEA agents 
and 6 FBI agents, ma'am.
    Mrs. Mink. That sounds like a very minuscule number of 
people----
    Mr. Ledwith. I should say the six FBI agents----
    Mrs. Mink [continuing]. To deal with such an enormous 
problem like this.
    Mr. Ledwith. Yes, ma'am, I would agree with you.
    The six FBI agents I referred to are FBI agents involved 
working in DEA offices against drugs. There are other FBI 
agents in Mexico who work nondrug cases, though.
    Mrs. Mink. Given the very limited number of people you have 
there, if we decertified, isn't it a reasonable assumption that 
none would be allowed in?
    Mr. Ledwith. I think that might very well be a reasonable 
assumption.
    Mrs. Mink. Ms. Warren, on the whole matter of extradition, 
I am very much confused. In your testimony you said article 4 
of the Mexican penal code has been interpreted to mean that it 
was mandatory for the Mexican Government to try its own 
citizens.
    Ms. Warren. Those were decisions by intermediate level 
appellate courts. The issue is now before their highest court, 
the Mexican supreme court, for decision; and we hope for a 
favorable resolution of that, a resolution that would say that 
article 4 does not bar the extradition of the Mexican 
nationals, and that should proceed according to the treaty.
    Mrs. Mink. Now, if they haven't had any trials, arrests or 
trials of any significant drug traffickers within their own 
country, to what extent is article 4 a real impediment?
    Ms. Warren. They have had and they continue to have 
prosecutions under article 4 and under their regular criminal 
prosecutions. I agree with Mr. Ledwith, they just haven't had 
any prosecutions of any high-level traffickers or of the 
leaders of the major organizations.
    Mrs. Mink. Do you have an explanation of why that has not 
occurred? That is a very troubling point which has been raised 
in many hearings last year, in meetings that we had with 
leaders in Mexico; and to this date, there has been no 
reasonable explanation, and one has to assume that it is 
because of political pressures, corruption, whatever other kind 
of explanation comes to mind, because no one seems to be able 
to pinpoint this difficulty.
    Ms. Warren. I am not able to find the one answer to it. 
They do have some major traffickers now held for extradition to 
the United States. We remain hopeful that those will work and 
those will appear in our courtrooms, the Amezcua brothers.
    Mrs. Mink. But then they argue that they won't do this 
because of our death penalty.
    Ms. Warren. No, they are not facing the death penalty.
    Mrs. Mink. These individuals are not?
    Ms. Warren. No, they are not, but they are facing 
substantial time for their trafficking offenses as violations 
of U.S. law.
    It has been very difficult for the Mexican law enforcement 
authorities to locate and arrest the major traffickers. They 
receive a great deal of support and assistance from DEA, but 
the primary force, of course, is Mexican law enforcement. 
President Zedillo and Attorney General Madrazo inherited a very 
difficult situation in the level of corruption in law 
enforcement in Mexico. It is something that we cannot 
understand in the United States.
    We go after one bad apple in a giant barrel and we are 
outraged that there was one bad apple.
    Think of the numbers that they have had to dismiss and how 
many more are within their ranks. It makes law enforcement very 
difficult.
    Mrs. Mink. Would you put on the plus side of the ledger the 
fact that they have fired these thousands of individuals that 
they have found to be corrupt?
    Ms. Warren. Absolutely. It has been an enormous and 
courageous undertaking for them to go after that.
    Mrs. Mink. Is that a process that has now come to an end 
and is subsiding, or are they continuing to go forward with 
this internal investigation?
    Ms. Warren. No, that is a continuing, ongoing effort, both 
in an administrative way to remove them from employment as well 
as identifying criminal violations to prosecute those 
individuals. It is a commitment that the President and the 
Attorney General have made and make publicly again and again.
    Mrs. Mink. Do the President and the Attorney General of 
Mexico have the power and authority to bring a prosecution 
against a major trafficker on their own? And has that been 
explored as one way to overcome this inertia?
    Ms. Warren. Their legal system is not the same as ours. To 
file charges, they have to meet a standard of proof that their 
courts judge is an appropriate threshold in order to issue 
arrest warrants. They have gotten arrest warrants issued 
against some, for instance, the former Governor of the Yucatan 
in Quintana Roo. That was a courageous step. They had the 
evidence to support it and the arrest warrant issued. He 
escaped before they were able to capture him. So they have 
tried.
    Mrs. Mink. Well, thank you very much, Mr. Chairman.
    Mr. Mica. Thank you.
    You know, Ms. Warren, you sound a little bit depressed. 
Last year, I gave a very depressing account of extradition, and 
you don't sound like you are getting all that much cooperation. 
You outlined again, and it was confirmed by DEA, still we have 
not had one major trafficker, Mexican national extradited, 
correct?
    Ms. Warren. It is discouraging and there were times that we 
were on more of an upward trend in our extradition 
relationship, and it has certainly flattened out at the moment.
    Mr. Mica. We got one about 2 or 3 weeks ago because 
extradition was coming up. It was a minor--wasn't it----
    Ms. Warren. We have gotten a few recently, correct; but we 
are looking for the major cases, and the important ones. The 
Mexican authorities and the United States have suffered from 
the Mexican court decisions. Both countries are committed to an 
independent judiciary and both countries suffer when the courts 
don't go exactly our ways.
    Mr. Mica. Unfortunately--and I have talked about this 
corruption and the corruption has now led to violence--we are 
seeing unprecedented violence just in the last year of public 
officials, entertainers, law enforcement people slaughtered on 
the streets. Unfortunately, this may have to take the route of 
what happened in the Mafia in Italy. They became so brazen that 
the public took to the streets and demanded--I think you may 
have met Pino Arlacchi, the head of the ONDCP, who headed that 
effort, and I feel sorry for the Mexicans. This is predictable, 
that the corruption would lead to violence and slaughter of 
their people; and now that is taking place in great numbers. So 
maybe only an outcry from Mexico will make something happen.
    The other thing, too, is decertification merely asks 
whether the country is fully cooperating to receive U.S. trade, 
financial assistance and other benefits that are given by this 
country to other countries. That's why it is so important and 
that's why I agree with--Senator Helms has said that the 
process has not been properly followed by the administration.
    Having helped draft it, I think that they have 
misinterpreted the intent of that, and it is to get their 
attention. I think if you do get their attention on suspending 
some support in international financial organizations, then 
very quickly we will begin to take action. Unfortunately, it is 
taking another route and the violence is now spawning hopefully 
some action. Even Mexicans have to be appalled by what has 
taken place just recently.
    Finally, the ranking member and I, in November, sent to the 
President a letter requesting that we have a border coordinator 
for the Southwest border. That was based on our visit to the 
Southwest border a year ago, when we met with officials, and it 
didn't appear like--there were many people trying to do good 
jobs, but it didn't appear that we had the coordination. Then 
we held a hearing in Washington and then we signed this joint 
request.
    We haven't had a response back from this request. Has 
anyone heard anything about such a proposal and where it is in 
the administration? Have you heard anything, Ms. Warren?
    Ms. Warren. I am not exactly certain where that proposal 
is. I do know that the Department of Justice and the Department 
of Treasury together believe that our response, in general, to 
the need for greater coordination comes through the Border 
Coordination Initiative.
    Mr. Mica. Even our Director of ONDCP stated to us, let me 
quote, there is no one entity responsible for the coordination 
of overall drug efforts along the Southwest border; the primary 
factor contributing to the lack of accountability and 
coordination of drug control efforts along the Southwest 
border. That's what General McCaffrey said to us.
    We reviewed the situation out there. We held a hearing 
here. We came to this conclusion. We asked for action.
    So is there anything you could do with the Attorney 
General, with any of your departments, to try to move this 
along?
    The Border Patrol, I know you are doing the best you think 
you can, but we have reviewed this. It has been reviewed by the 
national drug czar and others, and I still don't see anybody in 
control.
    Ms. Warren. Again, the Departments of Justice and Treasury 
believe that the Border Coordination Initiative is the 
response, and I would like to be able to provide you with those 
materials that explain that initiative and how it responds.
    Mr. Mica. What I may do then, if you will tell them, is 
when their appropriations measure comes up, I am going to see 
what I can do to block their appropriations this year until we 
get some action on that.
    So we will convey that by messenger and letter, because 
this is long overdue.
    We are going to go back to the Southwest border. We were in 
El Paso. We are going to San Diego and that border crossing on 
Tuesday. We don't have votes on Monday and Tuesday. We will 
review the situation again, but it still appears that we have 
not had action where we have requested that.
    Mrs. Mink, did you have anything further?
    Mrs. Mink. Yes, Mr. Chairman. The best solution, I think, 
in the appropriations process is to direct that part of the 
money being allocated for the initiative be used for the 
establishment of a coordinator.
    Mr. Mica. Well, whatever it takes, and I am willing to work 
with you. I always like to just stop the train and see if that 
gets their attention.
    Mrs. Mink. I am not for stopping the train. I am for taking 
my slice out of it.
    Mr. Mica. Well, we will do whatever it takes. I thank the 
three witnesses for being with us this morning and also for 
your efforts on behalf of the citizens in trying to bring some 
of this situation relating to Mexico's drug trafficking and 
border control, the whole problem we face.
    We thank you for your efforts and excuse you at this time.
    The next panel is Mr. Philip Jordan. He is a DEA, Drug 
Enforcement Administration, former director of EPIC, the El 
Paso Intelligence Center. He is now retired, and we have asked 
him to come and give us his observations; sometimes those in 
official capacity are a little bit constrained.
    And we also have some new players in this effort, so today 
we will hear from someone who is a veteran and a retired EPIC 
Intelligence Center director.
    Mr. Jordan, maybe you could just stay standing. If you 
don't mind, I will swear you in.
    [Witness sworn.]
    Mr. Mica. The gentlemen has answered in the affirmative. 
Welcome to our subcommittee.
    We won't run a clock on you. If you have anything you would 
like, as far as data, information, background, to submit for 
the record, we will be glad to do that upon request.
    Mr. Jordan, you are recognized. Welcome.

STATEMENT OF PHILLIP JORDAN, DEA (RETIRED), FORMER DIRECTOR OF 
                              EPIC

    Mr. Jordan. Thank you, Mr. Chairman.
    Distinguished Congressmen, I want to thank you for inviting 
and allowing me the opportunity to speak before this 
distinguished subcommittee. My remarks will be brief and from 
the heart.
    I was born in El Paso, TX, and raised approximately five 
blocks from the United States-Mexican border. I do want to 
state something for the record. I am not here representing DEA. 
I have a high respect for the men and women of DEA, for which I 
worked for 31\1/2\ years.
    I gave over 30 years of service to the DEA, and Mexico has 
been part of the fabric of my very being. And by the way, with 
the political atmosphere that's out there today in regards to 
religion, I am a Catholic.
    I am very familiar with the Juarez-El Paso drug 
transhipment corridor, but rather than being here and 
representing DEA, which I am not, I would like to believe that 
I am here representing my neighbors in Plano, TX, of which we 
have had over 50 heroin overdose deaths in the Metroplex, 
including about 20 in Plano, where I presently reside. These 
are overdose deaths from black tar heroin, coming from the 
country of Mexico.
    My testimony today is not based on abstractions, nor is it 
based on racism or hatred of Mexico. I speak from experience, 
and this experience is of a Mexico looted by a corrupt ruling 
class that is addicted to drug money, an antidemocratic elite 
that has for years oppressed, murdered and terrorized its own 
citizens, including Kiki Camarena, who was born in Mexico.
    The question before this committee should not be whether 
Mexico has earned the right to be certified this year for 
cooperation in the war on drugs. The question is: Why, given 
its record, has Mexico ever been certified?
    You saw my former associate walk the edges when you asked 
him, Mr. Chairman, what does DEA recommend? Of course, DEA does 
not recommend certification, but we cannot say it for the 
record, or they cannot say it for the record.
    I am talking about the real agents that work with the DEA. 
In this matter, I can speak from my 30 years of experience in 
Federal drug law enforcement. Before my retirement, I was the 
Director of the El Paso Intelligence Center, the very core of 
our government's intelligence and knowledge about the drug 
world. In that capacity, I knew a lot of what our government 
knew as it related to drug intelligence. I helped brief our 
leading officials on our intelligence information, information 
that wasn't acknowledged. In fact, the very unit that assembled 
this type of intelligence and was responsible for the 
briefings, from the latest intelligence that I have it has now 
been disbanded, because it was continuing to expose corruption 
in Mexico.
    I witnessed Mexico being recertified year after year, while 
the drug cartels grew in power and wealth until they finally 
seemed to dwarf the very Government of Mexico.
    It is useful to keep in mind that Mexico earns 
approximately $8 billion a year from oil production, its major 
single legal export. Yet Mexico earns approximately $30 billion 
a year from drugs.
    To put this in perspective, our 1995 bailout of the Mexican 
economy could have been financed by the Mexican Government, 
without borrowing from the United States, by simply dipping 
into the Nation's drug revenues. I firmly believe that a strong 
possibility exists that the Mexican economy would probably 
collapse without the infusion of drug money. I do not doubt 
that the leaders of our government are cognizant of this 
prospect.
    The drug black market is no longer a marginal part of 
Mexico, but has become the very foundation which supports the 
Mexican Government. The rulers of Mexico survive and profit by 
selling the United States death on the installment plan. This 
time each year, as Congress debates whether to certify Mexico, 
events are staged by the United States and Mexican Governments 
to prove cooperation in the drug wars.
    Several years ago, the Mexican Government gave us a bone, 
an expendable Juan Garcia Abrego, an individual that while I 
was head of the DEA in Dallas, we had him indicted from a Fort 
Worth police investigation. He was the head of the Gulf cartel, 
who, I firmly believe, failed to leave his government bribe 
payments at the highest levels, and this was mainly due to the 
increased pressure that he was receiving from the Juarez 
cartel.
    The following year, Mexico arrested the general, Jesus 
Rebollo, their drug czar and also a paid employee of the Juarez 
cartel, a man whose corrupt past was known to DEA, at least our 
DEA officers in Mexico.
    This year it was the joint FBI-Mexican Government mass 
grave excavation in Juarez that resulted in uncovering the 
remains of nine men and two dogs. Eight of these victims were 
allegedly murdered by the FBI's own Mexican federal police 
informant.
    Meanwhile, the volume of drugs crossing the United States-
Mexican border increases. The street value of drugs declines 
and the U.S. drug problem continues to grow. If the Mexican 
Government continues to cooperate as vigorously as it has in 
the past, the price of drugs on our streets may easily drop to 
the same price as lettuce.
    This claim of cooperation is simply--I don't want to say it 
is a lie, but not true. Cartel bosses, the drug lords, thrive 
throughout Mexico with impunity; and somebody already stated 
that. Recently, a leader of the Guadalajara cartel was 
discovered to be renting a mansion from the Mexican Attorney 
General's office. Raul Salinas, brother of the previous Mexican 
President, was discovered to have funneled hundreds of millions 
of dollars from drug profits to a Swiss bank account. These 
moneys were laundered through a New York bank that did not even 
blink at the large money transactions.
    Our government wants the American people to believe that 
while he was in office, former President Carlos Salinas was too 
busy to notice his brother's illicit activities, and the story 
continues.
    Why do we go through this annual exercise of futility 
called certification? Is this a simple, pious gesture of no 
real content because matters of state override enforcement of 
our drug laws? Should we abandon it? Maybe we should just face 
reality.
    We share a 2,000-mile border with a nation where leadership 
at the highest level is deeply mixed with the drug business; a 
government that oppresses its own citizens, including murdering 
countless people because of the lucrative drug business. It is 
estimated that each year approximately 1 million of its own 
citizens--men, women and children--give their message to 
decertify Mexico by fleeing to the United States, partly to 
escape the violence associated with the drug business. This is 
a clear message from their own people that Mexico should not be 
certified.
    But if we are going to continue this practice called 
``certification,'' let's at least bargain for something 
substantial that will help the people of both countries. You 
heard testimony here today where Mexico will not extradite any 
major drug lord to the United States. They are not going to 
extradite the hand that feeds them to the United States.
    How about asking for a yearly quota of the drug lords in 
payment for certification? This human product will not be hard 
to find since they are currently living in mansions in Tijuana, 
Mexico City, Guadalajara; and they often carry police 
credentials given to them by the Mexican Government.
    Let's tell the American people the truth. The Mexican 
Government is corrupt and fattened by drug revenues. The 
Mexican Government is helping to poison our people and crush 
its own people. Our deliberate lying about this is killing 
people in both nations; they are victims of a deadly fiction of 
our foreign policy, and if we do this one thing, we will 
benefit the people of both nations. Americans and Mexicans have 
made long strides toward our deepest democratic belief--
government of the people, by the people, and for the people.
    I will be happy to answer any questions, and I hope that I 
was politically correct.
    Mr. Mica. Thank you, Mr. Jordan. When did you leave DEA?
    Mr. Jordan. 1996.
    Mr. Mica. You have pretty much followed the situation then 
as a retired official since then?
    Mr. Jordan. Yes, sir.
    Mr. Mica. Do you still live along the border?
    Mr. Jordan. I was born in El Paso, TX, and I am now in 
Plano, TX. Plano, TX, by the way, was where we had that influx 
of heroin overdose deaths.
    Mr. Mica. Primarily among young people?
    Mr. Jordan. Yes.
    Mr. Mica. We have had the same thing, Colombian heroin 
coming through the Caribbean, Puerto Rico, and into my area, so 
I am aware of a bit of the same problem, different routing.
    So since 1996 you said you have been a pretty keen 
observer, stay in touch and you feel that the corruption has 
spread over is it about the same from what you're hearing and 
what you're observing with the Mexican officials?
    Mr. Jordan. It continues to increase. It continues to 
spread like a cancer; it continues to penetrate our borders.
    Mr. Mica. You also claim that drug money is a source of a 
great deal of income for the government and for officials. What 
do you base that on?
    Mr. Jordan. Well, the large payments that are documented in 
intelligence, the large volume of money that exchanges hands 
from the drug traffickers. For example, it was mentioned 
earlier, you have to separate the Colombia cocaine coming 
through Mexico. The Colombians have to pay the Mexicans to 
allow that cocaine to come through Mexico to the United States. 
So there is an infusion of money that has to be paid to 
government officials in order to allow that transshipment of 
the cocaine from Colombia to Mexico to the United States. This 
is strictly from 30 years of experience.
    Mr. Mica. What do you think that it is going to take to get 
Mexico's attention to deal with this problem?
    Mr. Jordan. Well, I firmly believe that decertification for 
1 year would send a very strong message to Mexico, and they 
would get the message that we mean business. You know, one 
thing that would happen here is that we would be helping both 
countries. It would not just be penalizing Mexico, it would be 
helping them.
    Mr. Mica. Maybe you heard my comments during my opening 
statement that Mexico has even corrupted the decertification 
process. They have hired top lobbyist guns in Washington and 
Madison Avenue types to gloss over problems and present a good 
face, masking the narcotics trafficking problem that they have. 
Even as Chair of this subcommittee and with others, we are 
fighting a losing battle because they bought off the 
opposition.
    Mr. Jordan. It is very hard to compete.
    Mr. Mica. Even in Washington at this level.
    I don't mean that they paid them, but I mean that they have 
hired the top guns. They have paraded people down there and 
shown them only the good side, and they have done a Madison 
Avenue snow job on the rest of the folks. In the meantime, we 
have given them incredible trade benefits, unprecedented in any 
country. In fact, we have gone from a positive trade balance to 
one of the most negative, exceeded by maybe only China, not to 
mention loss of jobs and loss of economic opportunity plus 
degradation of the environment. They don't care about labor 
laws or OSHA or environmental protection, and they take all of 
this advantage and give us narcotics in return.
    Is that a fair observation?
    Mr. Jordan. It is a very fair observation. Very fair, yes, 
sir.
    Mr. Mica. It is very frustrating because the process 
certifies that they are fully cooperating and makes them 
eligible for U.S. benefits. They have even so contorted the 
process that they have convinced some people that there should 
be an international certification, or inter-American 
certification process, which is one of the most unbelievable 
distortions of denying U.S. sovereignty and who gets these 
trade benefits or financial assistance.
    Mr. Jordan. One thing, Mr. Chairman, that I am sure you are 
aware of is that every year since certification was approved, 
Mexico will do a show-and-tell-type thing.
    Mr. Mica. Yes.
    Mr. Jordan. Right before February-March.
    Mr. Mica. Exactly. We have seen that with one bone thrown 
recently, coming up with signing up a maritime agreement, which 
has basically no terms, and a couple of other hollow gestures, 
which is unfortunate.
    I think the only thing that is going to resolve it is more 
violence in Mexico and the Mexicans rise up and throw out the 
corrupt officials and demand a change because they have even 
undermined the process of certification for the United States 
of America. That is how bad it has gotten.
    Mr. Jordan. That's correct. And I can tell you, sir, that 
Mexican comandantes, including one we called him an 
untouchable, told Sam Dillon of the New York Times, I believe--
exactly how every year they are supposed to do the right thing 
at a certain specific time, and then as soon as certification 
is approved, it is business as usual. I know DEA knows it, but 
I don't know if the DEA can do anything about it.
    Mr. Mica. I am also told that some of the officials that 
are removed are replaced with other officials; and we had a 
report, a GAO report, that some of the officials that have been 
removed are just moved to other positions.
    Mr. Jordan. That's correct. I heard a figure of 4,000, 
4,100 were fired. What you did not hear was how many were 
rehired.
    Mr. Mica. Yes. We have a study that confirms exactly that, 
and you are saying you've seen the same thing?
    Mr. Jordan. That's accurate.
    Mr. Mica. It is unfortunate, too, that corruption seems to 
continue even at the highest levels--cabinet, even Office of 
the President. Would that be your assumption?
    Mr. Jordan. Yes. I don't have any knowledge of the current 
President of Mexico, but in previous administrations----
    Mr. Mica. There has been at least one official implicated 
in his office, and I think the investigation was closed down.
    Mr. Jordan. Right.
    Mr. Mica. Are you aware of the amounts of money that have 
been attempted to be laundered? We had a former Customs agent 
testify before our subcommittee about a year ago, and he 
testified that a Mexican general had attempted to launder $1.1 
billion in the United States.
    Are you aware of any corruption in the military?
    Mr. Jordan. Oh, yes. I am familiar with the corruption in 
the military from day one. In past operations, to give an 
example, we would call the Mexican Federal judicial police to 
assist us in an investigation in Mexico; and if it was a large 
operation, we would have to call the military. Well, in a 
couple of instances the Mexican military would notify the 
principals, and obviously everybody would escape, just like 
this Governor escaped. I am sure that the Governor knew that he 
was going to be, ``arrested.''
    Mr. Mica. We all knew that, and we held a hearing and we 
cited evidence that we had from a trip that we made about the 
Quintana Roo Governor, Mario Villanueva-Madrid, being involved 
up to his eyeballs just before he left office; and because they 
have that immunity while in office, he slipped through 
everybody's hands and he disappeared.
    So you think that is pretty much an inside job, too?
    Mr. Jordan. Yes. That is why you never see any of these 
officials arrested or tried in Mexico.
    Mr. Mica. About the amount, is that farfetched, the billion 
dollars? Were you hearing large, significant amounts? I guess 
we know that the Salinas brother ran off with in excess of $100 
million?
    Mr. Jordan. Yes. I am not saying that all of it is drug 
related, but there is a close correlation there between the 
Garcia organization and the Salinas relationship.
    Mr. Mica. You keep current with some of your former 
colleagues in DEA and some of the other enforcement agencies?
    Mr. Jordan. Yes, I do.
    Mr. Mica. Are they reporting back the same type of activity 
you have described to us today?
    Mr. Jordan. Worse activity in Mexico than ever, including 
the violence.
    Mr. Mica. It has shifted from corruption to violence and at 
unparalleled levels. Just the brazen murder of the police 
chief--I guess it was just within hours of the departure of the 
President, according to this report in the Washington Post. So 
it has gotten pretty much out of hand.
    Mr. Jordan. That was a clear message to the President of 
Mexico that his antidrug speech was not welcomed in that part 
of town because they immediately executed the police chief. I 
mean----
    Mr. Mica. Well, we appreciate your coming forward today and 
providing us with your insight. Sometimes it is difficult to 
get people--as you saw, we had government witnesses here--and 
we appreciate your stepping forward and also your perception 
over a number of decades with the agency. We thank you for your 
service. We appreciate your testimony.
    Do we have an agreement on leaving the record open for 1 
week? By unanimous consent, the record of this hearing will be 
left open for additional questions.
    There being no further business before the Subcommittee on 
Criminal Justice, Drug Policy, and Human Resources, this 
hearing is adjourned.
    Mr. Jordan. Thank you.
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T6877.040

[GRAPHIC] [TIFF OMITTED] T6877.041

[GRAPHIC] [TIFF OMITTED] T6877.042

[GRAPHIC] [TIFF OMITTED] T6877.043

[GRAPHIC] [TIFF OMITTED] T6877.044

[GRAPHIC] [TIFF OMITTED] T6877.045

[GRAPHIC] [TIFF OMITTED] T6877.046

[GRAPHIC] [TIFF OMITTED] T6877.047

[GRAPHIC] [TIFF OMITTED] T6877.048

[GRAPHIC] [TIFF OMITTED] T6877.049

[GRAPHIC] [TIFF OMITTED] T6877.050

[GRAPHIC] [TIFF OMITTED] T6877.051

[GRAPHIC] [TIFF OMITTED] T6877.052

[GRAPHIC] [TIFF OMITTED] T6877.053

[GRAPHIC] [TIFF OMITTED] T6877.054

[GRAPHIC] [TIFF OMITTED] T6877.055

[GRAPHIC] [TIFF OMITTED] T6877.056

[GRAPHIC] [TIFF OMITTED] T6877.057

[GRAPHIC] [TIFF OMITTED] T6877.058

[GRAPHIC] [TIFF OMITTED] T6877.059

[GRAPHIC] [TIFF OMITTED] T6877.060

[GRAPHIC] [TIFF OMITTED] T6877.061

[GRAPHIC] [TIFF OMITTED] T6877.062

[GRAPHIC] [TIFF OMITTED] T6877.063

[GRAPHIC] [TIFF OMITTED] T6877.064

[GRAPHIC] [TIFF OMITTED] T6877.065

[GRAPHIC] [TIFF OMITTED] T6877.066

[GRAPHIC] [TIFF OMITTED] T6877.067

[GRAPHIC] [TIFF OMITTED] T6877.068

[GRAPHIC] [TIFF OMITTED] T6877.069

[GRAPHIC] [TIFF OMITTED] T6877.070

[GRAPHIC] [TIFF OMITTED] T6877.071

[GRAPHIC] [TIFF OMITTED] T6877.072

[GRAPHIC] [TIFF OMITTED] T6877.073

[GRAPHIC] [TIFF OMITTED] T6877.074

[GRAPHIC] [TIFF OMITTED] T6877.075

[GRAPHIC] [TIFF OMITTED] T6877.076

[GRAPHIC] [TIFF OMITTED] T6877.077

[GRAPHIC] [TIFF OMITTED] T6877.078

[GRAPHIC] [TIFF OMITTED] T6877.079

[GRAPHIC] [TIFF OMITTED] T6877.080

[GRAPHIC] [TIFF OMITTED] T6877.081

[GRAPHIC] [TIFF OMITTED] T6877.082

[GRAPHIC] [TIFF OMITTED] T6877.083

[GRAPHIC] [TIFF OMITTED] T6877.084

[GRAPHIC] [TIFF OMITTED] T6877.085

[GRAPHIC] [TIFF OMITTED] T6877.086

[GRAPHIC] [TIFF OMITTED] T6877.087

[GRAPHIC] [TIFF OMITTED] T6877.088

[GRAPHIC] [TIFF OMITTED] T6877.089

[GRAPHIC] [TIFF OMITTED] T6877.090

[GRAPHIC] [TIFF OMITTED] T6877.091

[GRAPHIC] [TIFF OMITTED] T6877.092


</pre></body></html>
